<html>
<title> - ISSUES AND OPPORTUNITIES IN THE WESTERN HEMISPHERE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                      ISSUES AND OPPORTUNITIES IN 
                         THE WESTERN HEMISPHERE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2017

                               __________

                           Serial No. 115-23

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-445 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                    
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Sally Yearwood, executive director, Caribbean-Central 
  American Action................................................     7
Mr. Joseph M. Humire, executive director, Center for a Secure 
  Free Society...................................................    16
Mr. Jose Cardenas (former Acting Assistant Administrator, Bureau 
  for Latin America and the Caribbean, U.S. Agency for 
  International Development).....................................    30
Mr. Peter Quilter, non-resident senior fellow, Ash Center for 
  Democratic Governance and Innovation, John F. Kennedy School of 
  Government, Harvard University.................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Sally Yearwood: Prepared statement...........................    10
Mr. Joseph M. Humire: Prepared statement.........................    19
Mr. Jose Cardenas: Prepared statement............................    32
Mr. Peter Quilter: Prepared statement............................    43

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63


           ISSUES AND OPPORTUNITIES IN THE WESTERN HEMISPHERE

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2017

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order. I would now like to recognize myself for an 
opening statement.
    I would like to begin by extending a warm welcome to the 
returning members on the subcommittee. Over the years this 
subcommittee has been fortunate to operate in a bipartisan 
fashion and I look forward to continuing the work that we have 
done and working hand in hand with my good friend, the 
gentleman from New Jersey, our ranking member, Albio Sires, and 
all the members of the subcommittee, as the new Trump 
administration begins to lay out their policy priorities for 
the Western Hemisphere. I look forward to seeing what those 
priorities are.
    I'd now like to introduce the new members. They are not 
here but I'll go ahead and read their names and hopefully they 
will trickle in after votes, this is the way it goes sometimes.
    We have got Mr. Mo Brooks from Alabama, Mr. Francis Rooney 
of Florida, Ms. Norma Torres of California and Mr. Adriano 
Espaillat of New York.
    They each have their own unique background and experiences 
and we look forward to them being strong contributors to our 
work during this 115th Congress.
    Today's hearing should provide subcommittee members with a 
comprehensive look at the lay of the land in the Western 
Hemisphere, give us some food for thought as the new Trump 
administration begins to reveal their priorities for 2017.
    I am particularly interested in what our witnesses think 
that policy priorities should be in Cuba and Venezuela, and in 
places that continue to receive large amounts of U.S. taxpayer 
funding like Colombia, Haiti, and the Northern Triangle in 
Central America.
    Clearly, the administration will need to work on a 
bilateral relationship with Mexico, but the United States is 
certainly right to seek to enforce our borders and protect our 
precious sovereignty. I thank today's distinguished panel of 
witnesses for being here and sharing their thoughts and 
insights with us. Many of them have testified before our 
committee before and I welcome them back.
    In my opinion, the prior administration did little to 
advance U.S. interests in this hemisphere, and, in fact, did 
harm to traditional U.S. policies of standing up for human 
rights, and the rule of law under repressive regimes that 
currently plague countries like Cuba and Venezuela.
    In Cuba, the Obama administration gave the Castros pretty 
much everything they wanted without asking Congress to remove 
the embargo as required by U.S. law.
    Furthermore, the Obama administration didn't even insist 
upon the most basic human rights protections as political 
dissidents were rounded up, beaten, and jailed in record 
numbers. And in their Cuba policy shift, the all-important 
issue of resolving the thousands of property rights claims were 
barely even mentioned.
    The pain and suffering that the Chavez-Maduro regime 
inflicted upon Venezuela has been well documented, and our 
hearts go out to the Venezuelan people who deserve so much more 
than hyperinflation, rolling blackouts, widespread shortages of 
medicine and, literally, scrounging for food every day just to 
survive. Recent reports of canines and flamingoes and other 
animals being slaughtered for food is disheartening and our 
thoughts and prayers go out to the folks in Venezuela.
    I was encouraged by early signs from the new administration 
last week, including the decision to slap sanctions on the new 
Venezuelan Vice President for his participation in drug 
trafficking, and President Trump's taking of an impromptu 
meeting with Lilian Lopez, the wife of wrongfully jailed 
opposition leader Leopoldo Lopez.
    We also had the opportunity to meet with her as well and 
Leopoldo Lopez remains in our thoughts and prayers.
    Under my chairmanship this subcommittee has traveled 
extensively in the region. I intend to continue to do my part 
in this session of Congress to advance our interests in the 
hemisphere.
    It has been said that our region does not get the attention 
that it deserves. In fact, when Secretary Kerry made his famous 
speech at the OAS in November 2013 that the era of the Monroe 
Doctrine is over, the administration admitted as much.
    But I would maintain that because of our region being 
largely peaceful, the lack of major wars for several years, a 
healthy flow of trade and commerce, and an abundance of common 
heritage and religious beliefs, these are things to be 
celebrated and built upon rather than overlooked.
    Of course, that is not to say that we don't have much work 
to do. The important task of finishing Plan Colombia by making 
Peace Colombia work going forward will surely present many 
challenges to U.S and Colombian policy makers, but is work in 
which both our countries have invested much blood and treasure 
so as to successfully turn that country around. As a result, 
they remain our best ally in the hemisphere.
    In Haiti, it has now been more than 7 years since the 
devastating earthquake that resulted in so much damage and loss 
of life. Much progress has been made thanks to the generosity 
of U.S. taxpayers and many other international donors, but 
there is still much work to be done there. It certainly didn't 
help that they were hit by Hurricane Matthew last fall and 
experienced another uptick in cases of cholera.
    Like many regional observers, nearly 14 months after the 
elections began, I was hopeful when Haiti finally 
democratically elected a new President and a Congress. We at 
least now have a government partner to work with going forward, 
and I plan to do my part in keeping a healthy dialogue open 
when I meet with the new President sometime later this year.
    Obviously, all this is not to say the hemisphere doesn't 
still suffer from the seemingly intractable problems of drug 
trafficking, transnational gains in criminal organizations, 
corruption, poverty, and lack of opportunity for many.
    We have been experiencing the results of these problems 
first hand with the continual wave of illegal immigration, 
especially of unaccompanied minors from the Northern Triangle 
in Central America coming to our southern border every day. I 
support the Trump administration and stand with those who 
believe we must enforce our borders and protect our 
sovereignty. As Ronald Reagan said, ``If we do not we are not a 
country at all.'' We are a kind and generous nation but we 
cannot become the orphanage to the world.
    When I assumed the chairmanship of this subcommittee I 
pointed out in our first hearing that I have three simple 
priorities and I'll restate those for this Congress: Create 
jobs for the American people, promote U.S. energy security and 
U.S. exports, and return to the wisdom of our Founding Fathers. 
That's an acronym--jobs, energy, Founding Fathers--that spell 
JEFF and I think JEFF is a winning message.
    It is through that prism that I'll continue to view the 
issues and priorities that we will focus on going forward. The 
Western Hemisphere presents abundant opportunities for success 
in all of these areas for the United States as well as for our 
allies here in the hemisphere.
    With that, I will turn to the ranking member, Mr. Sires, 
for his opening statement, and I will restate again that I have 
enjoyed our work together and I look forward to working with 
you again and so I yield with you.
    Mr. Sires. I just want to start by saying thank you, and I 
had nothing to do with Mr. Meeks going down below.
    [Laughter.]
    Good afternoon and thank you, Mr. Chairman, for holding 
this hearing. I'd like to start by welcoming everyone to our 
first hearing of the 115th Congress and give a special welcome 
to the new members of our subcommittee.
    I look forward to working with all of you in the new 
Congress. I am grateful to be back as ranking member of this 
subcommittee once again and serving alongside our chairman and 
my friend from South Carolina, Jeff Duncan.
    Many countries in the Western Hemisphere are at a 
crossroad. Throughout the region, the anti-corruption wave has 
taken hold and we have seen indictments, arrests, and 
resignations as a result. While these revelations have caused a 
stir in the region, they have also created the opportunities to 
bring real and lasting change to these institutions long in 
need of reform.
    In the Northern Triangle, efforts are underway to 
strengthen to rule of law and address human rights concerns. 
Though Brazilian officials are facing accusations of bribery, 
Brazilian people are insisting their government uses democratic 
institutions to hold them accountable.
    Partners like Argentina are taking steps to reform their 
economies and play a larger role addressing regional 
challenges. That is why I am proud to sponsor H. Res. 54, 
reaffirming our strong relation with the Argentine people and 
commending the government of President Macri for his economic 
reform and commitment to holding the perpetrators of the 1994 
AMIA bombing accountable.
    Additionally, our friends in Colombia signed a peace 
agreement with the FARC, taking the first steps in ending a 52-
year-long war that has claimed the lives of over 200,000 
people.
    We must remember that this agreement is just the beginning 
of the peace, not the end result. It is now more important than 
ever to continue our bipartisan backing of Colombia as they 
work to implement the peace deal, fight back against criminal 
groups, work to take over the FARC's territory, and deter 
further coca cultivation.
    Despite these opportunities for growth, challenges still 
abound. The repression of the Cuban people is only escalating, 
with innocent women continuing to regularly be beaten in the 
streets while peacefully marching.
    The Venezuelan people are, unfortunately, continuing to 
languish at the hands of Maduro, who continues to stifle 
democracy and violently fight back against pro-democracy 
advocates.
    My experience with the Western Hemisphere has taught me 
that any approach to Latin America needs to be a regional one. 
Piecemeal approaches will not tackle the region's most pressing 
challenges such as strengthening the rule of law and respect 
for human rights, increasing transparency and combating drug 
trafficking.
    That is why I am concerned about the rhetoric that is 
already coming out of the Trump administration with regards to 
our allies like Mexico, who has been a strong partner of the 
U.S. under both Republican and Democratic administrations. I 
hope that President Trump soon realizes how much these 
relationships have enhanced the security and prosperity of the 
United States, and that the only way to make the region 
stronger is by working together.
    I thank the witnesses for their testimony. I look forward 
to discussing how we can improve relations in the coming year. 
Thank you.
    Mr. Duncan. Okay.
    This being our first subcommittee meeting, I am going to 
kind of step out of the norm and recognize the former 
chairwoman of the subcommittee--of the full committee and now 
the subcommittee chairman of the Middle East and North Africa, 
Ms. Ros-Lehtinen, for a brief opening statement.
    Ms. Ros-Lehtinen. Well, thank you so much, Mr. Chairman, 
and thank you to the ranking member for this timely hearing. 
I'll be traveling to the region with Ranking Member Sires. We 
are going to Honduras and Guatemala this weekend.
    We have seen those countries make significant progress in 
fighting corruption, but the attorneys general of these 
countries need our support. They face tremendous propaganda 
campaigns to undermine the progress they've been making. In 
Nicaragua we see the Ortega regime immersed in corruption, 
denying human rights to its people, and undermining our 
interests in the region by placating the Russians.
    So much work needs to be done in Venezuela, as you pointed 
out, Mr. Chairman. Thank goodness we have got new sanctions 
against these human rights violators.
    We have seen the dialogue in Venezuela is not working and 
the U.S. position must be that Josh Holt and all the political 
prisoners including Leopoldo Lopez and Antonio Ledezma must be 
released immediately and unconditionally.
    And in my native homeland of Cuba we need to prioritize our 
focus to the Communist island and be on the side of human 
rights, on the side of return of fugitives like Joanne 
Chesimard, on the side of U.S. citizens whose properties were 
confiscated.
    There is so much going on, but hopeful signals too. We have 
got a new election cycle in Ecuador, Mr. Chairman, in April. 
That's going to, hopefully, bring back election democratic 
norms to that country. And in Haiti, lastly, after years of 
stalling elections finally occurred and we have a new 
President.
    So good things can happen. Thank you for your leadership, 
Mr. Chairman and Mr. Ranking Member.
    Mr. Duncan. I thank the lady, and I want to go now to Mr. 
Meeks, who is probably the senior member of the subcommittee, 
for a brief opening statement.
    Mr. Meeks. Thank you, Mr. Chairman. I want to thank you and 
the ranking member for holding this very important hearing on 
issues and opportunities in the Western Hemisphere.
    Our relationship with our neighbors, partners and friends 
must be a high priority for the United States. I am hopeful, 
you know, that the cuts that we are seeing through the State 
Department that the President is proposing do not jeopardize 
some of the things that we do.
    I am very concerned about that and maybe some of the other 
statements that he has made, particularly in regards to Mexico 
where we have spent decades investing in a relationship that 
works collaboratively on all fronts.
    And the question or not--the question is now whether or not 
all of that is in jeopardy following inflammatory and audacious 
statements regarding Mexican migrants, orders to increase 
deportations that would tear families apart, and efforts to 
build a border wall at Mexico's expense.
    You know, Mexico is a big important country for us and 
there is no question that NAFTA should be updated to meet the 
needs and changes of the 21st century. However, it has enabled 
a strong trade relationship between our countries and the 
subject of withdrawal by any of the three countries should not 
be used and taken lightly or used as a political tool.
    It is, unfortunate, as I have heard both you, Mr. Chairman, 
and the ranking member say, that the political situation in 
Venezuela has become detrimental to the Venezuelan people.
    The Venezuelan people are deserving of safety, security and 
prosperity and their well-being must take center stage. 
Positive changes across the hemisphere are welcoming, including 
in the Caribbean where we are encouraged by Haiti's commitment 
to the peaceful transfer of power to a new President.
    The Haitian people have endured countless natural and 
manmade disasters and it is their resilience that will restore 
and rejuvenate a democratic Haiti. Changes to the hemisphere 
are constant.
    But I also wanted to say I am pleased that we have enacted 
last year the U.S.-Caribbean Strategic Engagement Act, which I 
think helps a stronger engagement with the Caribbean. It is 
critical to our national security.
    And also I could not stop without talking about--and I 
think I have heard everyone mention this--the ratified peace 
agreement between the Colombian Government and the FARC which 
showcased to the world what Colombia's perseverance looks like, 
and serves as the model to others that getting to the table and 
talking through legitimate concerns and next steps is possible 
for our support for Peace Colombia and that should be as strong 
as it was for Plan Colombia.
    And, you know, I am a big trade guy but I have got to end--
I want to conclude by highlighting an issue that is near and 
dear to me: The social inclusion of persons of African descent 
in indigenous and marginalized communities. It's crucial to the 
advancement of our hemisphere. I would like to spotlight Brazil 
and Colombia as leaders in their respective efforts to dissolve 
barriers of race discrimination.
    Our joint action plans with Brazil and Colombia to 
eliminate racial and ethnic discrimination, and to promote 
equality highlight our mutual commitment to the issues.
    I fear that if we fail to acknowledge the necessity of 
social inclusion across the hemisphere it will be to the 
detriment of all of us in the hemisphere including the United 
States. As Dr. King said, ``Injustice anywhere is a threat to 
justice everywhere.''
    So the political, economic, social, and environmental 
advancement of our hemisphere requires earnest and genuine 
social inclusion to combat systemic discrimination and 
injustice. And if any government in the hemisphere including 
the United States fails to address this it will do so at its 
own peril.
    And I thank you, Mr. Chairman, again, for giving me this 
opportunity.
    Mr. Duncan. Thank you, Mr. Meeks.
    I am going to go ahead and recognize the witnesses. The 
rest of the committee members, if you would like to make a 
brief opening statement during the question period I will allow 
a little leniency on our time and not adhere to the strict 5 
minutes. But keep those statements brief when we get into the 
question time. I just want to try to make it fair with this 
being our first subcommittee meeting. But I would like to go 
ahead and start hearing from the witnesses in the time 
allotted. So we will now proceed with that.
    Each witness will be given 5 minutes to present testimony. 
There is no lighting system in here so I will give a brief 
indication when you're time is getting close, if you can wrap 
it up at that point.
    Members have been given the bios of all the witnesses and 
that's how we will run this committee. We will not introduce 
each witness by their bio and long lengthy introduction.
    I will just recognize them to go ahead with their 
testimony. You can read about them beforehand. We should 
provide that beforehand.
    So Ms. Sally Yearwood, you are recognized for 5 minutes. 
Welcome back.

STATEMENT OF MS. SALLY YEARWOOD, EXECUTIVE DIRECTOR, CARIBBEAN-
                    CENTRAL AMERICAN ACTION

    Ms. Yearwood. Thank you. Good afternoon, Chairman Duncan, 
Ranking Member Sires and members of the subcommittee. Thank you 
for the opportunity to appear before you today.
    The countries of the Caribbean and Central America are 
America's third border, and while they do not always figure 
front and center in discussions on hemispheric policy, they 
include 22 of the hemisphere's 35 independent nations and are 
therefore of significant strategic importance.
    With limited exceptions, the countries of the region have 
strong and longstanding relationships with the U.S. and share 
common values, intertwined histories, and often common 
challenges.
    The important thing about challenges, however, is that 
solutions and opportunities for all partners are found in 
collaboration, clear priorities and shared commitment.
    At the end of 2016, the bipartisan bill, the United States-
Caribbean Strategic Engagement Act of 2016 was passed into law. 
I would like to go on the record thanking Congressman Engel and 
Congresswoman Ros-Lehtinen for their co-sponsorship of the bill 
and ongoing support to the region. Its passage has immediately 
afforded an opportunity for Caribbean stakeholders to dialogue 
with counterparts in the United States on areas of mutual 
importance.
    Where Central America figures in the United States foreign 
policy and what this means for tackling such areas as crime and 
corruption in a volatile environment is particularly important 
and ongoing commitment and partnership is necessary.
    There is a lot at stake, particularly for the countries of 
the Northern Triangle where uncertainty could have 
repercussions across the social, political, and economic fronts 
including the vibrant trade relationship.
    The U.S. has consistently had a surplus with both 
subregions for the trade of goods, while the balance of trade 
with the hemisphere overall shows the U.S. running a deficit of 
$36.9 billion in 2014. The balance of trade with CBI countries 
recorded a surplus of $3.6 billion that year and in 2015 the 
U.S. had a trade surplus of $5 billion with DR-CAFTA countries. 
This trade supports hundreds of thousands of jobs here and has 
a correlated effect of creating and supporting hundreds of 
thousands of jobs in the region.
    There are a number of issues today that have broad 
implications for growth in the region. The weight of each 
factor varies by country. But I will point to some areas that 
have general resonance and are often relate.
    One--crime is one of the most pervasive issues that 
governments and societies are confronting. The tentacles of 
drugs, gangs, and violence bleed into politics and the 
economies in ways that many of the countries are unable to 
address in isolation.
    Related to the ability to manage crime in many of the 
countries is the weak nature of the judicial process. The court 
systems are often bogged down and people who are arrested are 
held without trial for extended periods of time, not to mention 
those who are in and out of the system after payoffs.
    Collaborative and security programs in the region can have 
a positive impact on the cost of managing border security in 
the United States. As an example, customs and immigration pre-
clearance facilities are an instruments for building mutually 
beneficial partnerships for protecting borders.
    Two--corruption has different implications, depending on 
the type and scale of the problem. But it is important to note 
that there are significant efforts being undertaken throughout 
the region to combat it and to increase transparency and 
accountability.
    These are yielding important results and ongoing support 
from international partners including the United States will 
serve to strengthen political will and will have lasting 
results.
    Three--reforms that can drive for more productive policy 
environment for trade and investment are necessary. Indeed, 
institutional inertia in both the Caribbean and Central America 
has been a barrier to more dynamic business communities.
    A strong business climate with clear rules and with rule of 
law has implications for job creation and economic growth and 
is an area that will impact competitiveness and productivity 
for the better.
    Four--there are strong legal migrant communities from 
Central America and the Caribbean throughout the United States 
and as U.S. policy evolves, there will be concerns about the 
possible effects on the region.
    One would be about the general economic impact which could 
be triggered by a drop in remittances, and second is the 
absorptive capacity if there is a wave of returning migrants 
and/or deportees.
    This could put extreme socioeconomic pressure on nations 
unless national or international resources are directed toward 
managing this influx.
    Five--the correspondent banking crisis in the Caribbean is 
considered a threat to stability. Small markets and high costs 
of compliance with global regulations have led to the derisking 
phenomenon, which is an outflow of foreign banks that manage 
cross-border transactions.
    The U.S., together with other bilateral partners and 
multilateral institutions, is working with the region to 
address compliance issues and the related unintended 
consequences.
    This cooperation must continue as a matter of national and 
regional security.
    Six--the entire region is vulnerable to natural disasters 
and the cost of a disaster can reach up to 30 percent of GDP. 
Linked to this vulnerability is the impact of rising sea levels 
that are threatening the coastlines. Resilient infrastructure 
development is a key to an economically sound and secure 
region.
    Seven--it is difficult to capture the importance of 
regional energy security in a paragraph. Venezuela's 
relationship with many in the region and the influence of 
Petrocaribe is its own book. Some highlights on progress in the 
region include the important work on the Central American 
electrical interconnection system, Guyana being on the brink of 
becoming a regional and global energy leader, and the 
deployment of technology for transportation and delivery of 
natural gas, which is making this fuel a more accessible and 
cost-efficient option for small islands. The U.S. and other 
partners have been working with the region with a focus on 
sustainable energy development. This has had positive results 
for economies where the high cost of energy can negatively 
impact economic activity.
    And finally, a few words on Haiti, where the new President 
was recently inaugurated. Haiti's social and economic 
development will require substantial public and private sector 
investment. Haiti's stability needs to be secured and it will 
take well planned domestic strategies coupled with targeted 
thoughtful international involvement to achieve this.
    In conclusion, fragile states are unreliable neighbors. So 
it is valuable to underscore the importance of a strong 
collaborative relationship with the countries of our third 
border.
    This subcommittee has been very mindful of this fact and I 
appreciate the attention it has given to the smaller nations of 
the hemisphere and to the issues impacting the systemic 
challenges to their economic growth.
    Thank you, Mr. Chairman, for the opportunity to be here.
    [The prepared statement of Ms. Yearwood follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Duncan. Thank you, Ms. Yearwood.
    I now will recognize Joseph Humire for 5 minutes.

 STATEMENT OF MR. JOSEPH M. HUMIRE, EXECUTIVE DIRECTOR, CENTER 
                   FOR A SECURE FREE SOCIETY

    Mr. Humire. Chairman Duncan, Ranking Member Sires, 
distinguished members of the subcommittee, good afternoon. I 
thank you once again for inviting me to testify before you 
today and thank you for your leadership on a region that is 
near and dear to my heart and where I spend a lot of time 
through my work.
    We are in an important period of transition, both in the 
world but, more particularly, in the Western Hemisphere. The 
rise of pro-U.S. governments in Argentina, Peru, Brazil, 
Guatemala and, potentially, other nations in the region very 
soon, combined with what appears to be a renewed focus from the 
White House with the appointment of General John Kelly. Along 
with the leadership of this Congress, I believe there are ample 
opportunities to increase our engagement throughout the 
Americas.
    Capitalizing on these opportunities, however, is going to 
require a strategic approach that's informed by our partners in 
the Latin America and Caribbean area.
    Through my work, I primarily focus on national security 
issues, but I spend a lot of time on the ground. I travel to 
the region probably more than I want.
    I spend a lot of time dealing with different actors and 
different partners that are--express different challenges that 
they are experiencing in their respective countries. With that, 
I can say that any regional strategy must take into account the 
growing transnational threats that are active in both Central, 
South America, and the Caribbean, along with the regional and 
extra regional actors that are exacerbating these challenges, 
many of which are identified in my written testimony.
    In my written remarks, I provide a series of 
recommendations, five recommendations in particular that I 
believe are areas where the Congress and the new administration 
can collaborate to further U.S. interests in the hemisphere. 
I'd like to highlight three of them.
    The first is immigration security. Border security begins 
beyond the border. There is a series of networks that are 
permeating all throughout Latin America from the southern tip 
of Argentina all the way up north through Mexico, passing 
through countries like Venezuela and Central America.
    The ability to capitalize on our immigration security is 
encompassed in our ability to strengthen our human intelligence 
collection.
    It is no longer sufficient to simply rely on law 
enforcement or immigration officials to wait until they get to 
the border or to the airport to be able to identify what is a 
threat. We must be able to augment our Embassies and consulates 
abroad who are literally our first line of defense when it 
comes to immigration security and I believe with the 
prioritization of the administration on this issue this 
provides a tremendous opportunity for the Congress to 
collaborate on this and Latin America.
    The second is counterterrorism. We are--in about less than 
a month we are about to embark upon a historic legal precedent 
in Latin America, both in Brazil and in Peru.
    For the first time in the region there is a strong 
potential that we will have the first conviction of a member of 
an Islamic terrorist organization, both a Sunni Salaafist 
organization and that of ISIS as well as a Shi'a extremist 
organization and that of Hezbollah.
    The case in Peru is set to be adjudicated before the end of 
March. The case in Brazil of 12 sympathizers to ISIS that 
plotted to blow up several sites before the summer Olympics 
this past--this past year is set to adjudicate even sooner.
    If these cases are convicted and sentenced, this is the 
first time in Latin America's history that a member of an 
Islamist terrorist organization is convicted for being a member 
of an Islamic terrorist organization.
    That creates a legal precedent, because in Latin America 
there is a legal vacuum in that about half the countries have 
anti-terrorism legislation but even the countries that have 
this legislation they never took into account foreign terrorist 
organizations. It was mostly domestic terrorism threats that 
they were dealing with when they addressed this problem.
    The influx of foreign terrorist organizations into the 
region creates a different challenge for these countries and 
being able to convict these individuals are de facto 
designations. I believe that will create a tremendous 
opportunity for the United States to cooperate with these 
countries to provide technical assistance, legal assistance and 
other so that they can create a bigger robust counter terrorism 
coalition.
    The final recommendation--not the final recommendation in 
my written remarks but the one I'd like to address in my 
opening statement is looking at a particular phenomenon in 
Latin America that goes beyond corruption. Many countries in 
Latin America are facing informal markets, illicit markets that 
override a lot of times the formal markets, free enterprise 
oftentimes being overrun by criminal enterprise.
    However, there are select few countries that have gone 
beyond that to essentially use criminalization as a way to 
empower state policy and to project their influence both within 
their country and abroad.
    A colleague of mine, regional security expert Douglas 
Farah, has called these countries criminalized states. I 
believe that's a concept that we need to develop, and we need 
to discuss all countries using transnational organized crime, 
terrorism, and proliferation of illicit products as a method to 
empower their governments, control their people, and eventually 
promote their influence regionally.
    I believe if we can assess that and determine that we need 
to establish a strategy to deter it and neutralize it because 
that can essentially become a bigger threat if you combine it 
with the component of extraregional actors.
    With that, I will just conclude by saying that, you know, I 
agree with your assessment, Mr. Chairman, that Latin America is 
largely a zone of peace, if you want to call it that.
    My colleagues in the defense community often tell me that 
while we have headaches in Latin America we have migraines in 
the Middle East.
    But what I would like to couch the committee to think about 
is that those headaches can turn into migraines if we don't 
anticipate the problems that are coming our way. Warfare--war 
is nothing more than compulsion, and there are many ways to 
compel your adversaries. And I believe in Latin America we are 
in a asymmetric war for legitimacy in the region, and that we 
have not yet begun to fight.
    In my written testimony I have identified these 
recommendations about how to advance these interests but it has 
to be couched among the concept that if we lose in our 
hemisphere we are going to lose everywhere.
    Thank you.
    [The prepared statement of Mr. Humire follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Mr. Duncan. Thank you, Mr. Humire.
    Now the chair will recognize Jose Cardenas.

    STATEMENT OF MR. JOSE CARDENAS (FORMER ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
             AGENCY FOR INTERNATIONAL DEVELOPMENT)

    Mr. Cardenas. Thank you, Mr. Chairman, Ranking Member 
Sires, distinguished members of the subcommittee. It is both an 
honor and a privilege to appear before you today to discuss 
U.S. policy in the Western Hemisphere.
    As my colleague, Joseph Humire, mentioned, after more than 
a decade after the rise of populist governments in the region 
uninterested in productive relations with the United States, 
the political pendulum has begun to swing the other way with 
the election of a number of pragmatic governments open to 
reestablishing normal relations. This creates significant 
opportunities to pursue new initiatives for the benefit of our 
and our neighbors' security and prosperity.
    To begin with, I suggest that the new administration and 
the new Congress focus on four issues, out of the gate--Mexico, 
Venezuela, Cuba and Central America, plus two longer-term 
plays, if you will.
    Mr. Chairman, the U.S.-Mexico relationship is one of the 
most important bilateral relationships the United States has in 
the world. It is equally true that President Trump has a 
mandate to make border security and reviewing NAFTA priorities.
    These, however, should be carried out in a collaborative 
way that encourages vital cooperation. It doesn't have to be 
confrontational.
    Smoothing over some of the rough edges from the 2016 
campaign is key to wider progress in the Americas without 
compromising on U.S.--core U.S. interests. Such an approach 
will likely deliver the stronger border security and a modern 
NAFTA that better serves U.S. interests.
    Secondly, on Venezuela, President Trump will encounter a 
different hemisphere, which creates opportunities for more 
diplomatic engagement to hold Venezuela accountable for its 
anti-democratic behavior. The President has already 
demonstrated an interest in defending democracy by meeting with 
the wives of two high-profile political prisoners, as you 
mentioned, Mr. Chairman. President Trump has also sanctioned 
senior Venezuelan officials implicated in narcotics trafficking 
in the United States.
    This two-track approach of working multilaterally, 
specifically through the Organization of American States, while 
increasing pressure by continuing to expose the crimes of 
Venezuelan officials, would be a welcome change to U.S. policy.
    On Cuba, Mr. Chairman, the Trump administration should 
seize the opportunity to bring energy and creativity to truly 
empowering the Cuban people to decide their own destiny, which 
President Obama articulated as the goal of his policy.
    First off, however, we need to immediately reestablish 
common cause with Cuba's persecuted dissidents and human rights 
activists. Secondly, the administration should review all 
executive orders and commercial deals signed under the previous 
administration and judge them by a single standard--do they 
help the Cuban people or do they empower the Castro regime. I 
suggest that any activity found to be more sustaining of the 
regime's control rather than directly benefiting the Cuban 
people should be ended.
    On Central America, President Trump can bring a new 
commitment and funding for our beleaguered neighbors attempting 
to cope with the transnational crime and gang activity.
    To that end, Mr. Chairman, we have to be guided by several 
assumptions. Number one, in Central America, as we try to 
placate and stabilize these societies, preventing their--the 
push factor from sending people to our borders, we have to 
recognize there are no silver bullets. It is not a question of 
the hard side or the soft side. It is going to take all sides.
    Secondly, Mr. Chairman, we cannot want it more than they 
do. We can only help if they are truly committed to helping 
themselves and that means tackling the twin evils of corruption 
and impunity.
    Three, we must be clear on sequencing. Security doesn't 
follow from resolving social and economic problems. You have to 
create security first before anything else.
    And lastly, a strong commitment to human rights is not a 
hindrance. It is essential. It creates legitimacy and trust 
among the very people we are trying to help.
    Beyond those imperatives, the longer-term play is 
realigning U.S. relations with two of the most important 
countries in the Western Hemisphere--Brazil and Argentina.
    Both are undergoing profound course corrections and we need 
to take advantage of the situation. Both of those countries can 
be essential partners after many years of less than cordial 
relations in support of consolidating democratic and free 
market development in the region, enhancing both U.S. security 
and prosperity.
    The table is set. All it requires is political will. Mr. 
Chairman, despite the myriad challenges, I remain optimistic 
about U.S. relations with Latin America and the Caribbean in 
the next 4 years.
    It will not be all smooth sailing. It never is. But the key 
is to move past the 2016 Presidential campaign by pursuing 
serious initiatives with tangible benefits to both the United 
States and those who want to work with us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cardenas follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Duncan. Thank you.
    And the chair will recognize Mr. Quilter for 5 minutes. 
Thank you.

STATEMENT OF MR. PETER QUILTER, NON-RESIDENT SENIOR FELLOW, ASH 
   CENTER FOR DEMOCRATIC GOVERNANCE AND INNOVATION, JOHN F. 
        KENNEDY SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Mr. Quilter. Thank you very much, Chairman Duncan, Ranking 
Member Sires, for the opportunity to testify today. Good to see 
you, Mr. Meeks.
    I will summarize my statement. I ask that the full 
statement be made part of the record.
    I would like to concentrate on three different issues which 
I think are intimately connected--Mexico, Venezuela and the 
Organization of American States.
    Mexico--what we have seen in the past week--the takeaway 
from what we have seen in the past week is that the dynamic 
that we are now seeing between Mexico and the U.S. is not 
business as usual.
    In 30 years of looking at this relationship I have never 
seen it this messy. The Tillerson-Kelly visit, which was 
intended to smooth things over, I think, in fact laid bare that 
1 year away from Mexican elections we have a lot on the table 
between us, Mexico and the United States.
    We have a big agenda. But the maneuvering room is 
constricting. It is getting smaller rather than widening. 
That's not good.
    What can be lost? A lot. I am not going to talk about the 
trade issue because we know that between Canada and Mexico the 
trade relationship is huge. I am going to talk about security, 
drugs and migration.
    What if Mexico were to look the other way on Central 
American migration going north? What would it look like if 
Mexico loosened its resolve on the drugs issue with us? What 
would it look like if Mexico stopped cooperating on terrorism 
intel with us? And I am talking about Middle Eastern countries. 
Lots of intel but I am talking specifically about that.
    Number two--there is a winner out of the past couple of 
weeks and that's Lopez Obrador, the perennial Leftist 
Presidential candidate in Mexico. His stock is going through 
the roof. He is a year away from the election, the front 
runner. This is not the consummation devoutly to be wished for 
the United States.
    Number three, this dynamic we are seeing right now with 
Mexico is the canary in the coal mine for our relationship with 
the rest of the hemisphere.
    We need to fix this because we have serious problems in the 
region, case in point, Venezuela. Venezuela remains the 
ulcerating sore of the region.
    In my statement I talk about two scenarios--a soft landing 
where Maduro basically limps his way to elections next year, 
which may or may not occur. He is good at buying time. That 
could happen.
    The second one is a hard landing. A hard landing will 
certainly involve bloodshed, will involve the Venezuelan 
military, will be a security nightmare for Venezuela's 
neighbors and will very likely unleash a refugee crisis.
    What to do? We need both these things. We need Venezuelans 
to lead the solution and we need the international community to 
accompany.
    Maduro does care about his international reputation. He 
doesn't care so much about what the U.S. says but he cares very 
much about what happens in the rest of the international 
community. We got to go there.
    Sanctions on individuals such as we just had with the Vice 
President work. They work. We should do more of those. What not 
to do? Bristly rhetoric. We have tried that before.
    Didn't work. We are not doing it now but we shouldn't do 
it. Second, and most critically, the U.S. can't do Venezuela 
alone and it can't lead on Venezuela.
    The lesson now from the Mexican dynamic is that U.S. needs 
partners. Unfortunately, trust in our partnerships is eroding. 
Maduro is exploiting that erosion. We need tools to galvanize 
those partnerships. The main one we have is the Organization of 
American States--the OAS.
    Let me quickly move to the OAS. The OAS is very weak. It's 
actually close to a breaking point. This is not an accident. 
This is a campaign that Venezuela and its friends have waged 
since Chavez. Unfortunately, I think the U.S. has let this 
happen.
    It has allowed a foreign policy asset to weaken that now we 
need more than ever. The good news is the OAS is worth saving. 
The time is fix it is now.
    Latin America in the past 15 years has been a good news 
story. It is less poor and more middle class than it has been. 
2017 and 2018 we will have eight different Presidential 
elections.
    This dynamic with Mexico bodes ill. The regional problems 
such as Venezuela require concerted effort, which now looks 
more difficult than ever, and the tools to do it, such as the 
OAS, are in trouble.
    There are significant U.S. policy equities that hang in the 
balance. Without a serious course correction from the Trump 
administration, I hope it comes in time.
    Thank you, sir.
    [The prepared statement of Mr. Quilter follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Duncan. I want to thank the witnesses, and I am pleased 
that there are several regional Ambassadors in attendance 
today.
    If you're an Ambassador from a Latin American country, if 
you could raise your hand and be recognized.
    All right. Thank you. Thank you all for attending.
    So I will now recognize myself for 5 minutes and then we 
will go through the order between majority and minority side. 
And so I will put the same clock on me as I did you guys but I 
may not adhere as strongly to it as I did you.
    Ms. Yearwood, since Congress passed the Caribbean strategy 
legislation late last year, and given our continued focus on 
the best way forward in dealing with the thorny issues of 
corruption, lawlessness, and migration in the Northern Triangle 
countries--El Salvador, Guatemala and Honduras--what do you see 
as the best strategies for engagement in the hemisphere? Kind 
of elaborate on some of your opening statement as well.
    Ms. Yearwood. Thank you for the opportunity to talk a 
little bit more about 4939. Forty-nine thirty-nine is kind of a 
little bit unique insofar as there is no money attached to the 
bill but what it does is it creates a vehicle for regional 
engagement with the United States and I think, according to 
some of the other statements from the--from the witnesses, the 
need for having this engagement, particularly, as I mentioned, 
22 of the 35 countries--independent nations in the region are 
in that--in the Caribbean and Central America--having the 
ability to dialogue with them and taking advantage of 4939 to 
create stakeholder dialogue where the U.S. is a partner with 
the region on these critical issues of corruption, economic 
development, diplomatic engagement, energy, being able to help 
pull away the influence of Petrocaribe, which I think is going 
to be important going forward, and finding ways for the region 
to advance as self-reliant and self-sustaining nations is going 
to be important.
    So I think having vehicles both within the Caribbean and 
within Central America where the U.S. is engaging productively 
will be an excellent way to make that vehicle work with the 
region.
    Mr. Duncan. Thank you. Shift gears a little bit.
    Mr. Humire, I know you are an expert on security in the 
region and you have written extensively on the Iranian activity 
in the hemisphere. I have been engaged in that since I came.
    A story broke this week in the Argentine press that exposed 
some of the tape recordings of Argentine prosecutor Alberto 
Nisman before his death where he seemed sure of the guilt of 
former Foreign Minister Timmerman and other top government 
officials in covering up the AMIA bombing.
    And he is quoted as saying, ``Although they want to kill me 
and take me out of the picture, that won't be a setback. Many/
some of the involved already know and are pleading for their 
lives but all of them know what they did, what they said, and 
it is their problem.''
    So that was the words of Albert Nisman. Can you expand on 
this revelation and give us a sense of the status of the 
investigation into his death and also what he was working on 
with regard to AMIA?
    Mr. Humire. Mr. Chairman, in Argentina, related to the case 
of Alberto Nisman, there's actually three separate cases that 
are connected.
    There is, obviously, the case of the AMIA bombing from 1994 
that is still active. It is still around. It needs to be 
pursued in advance.
    There is the case that he presented at the--Alberto Nisman 
presented before the Argentine courts about the criminal 
conspiracy between the former President, Christina Kirchner, 
and her complicitness with the Iranian Government to grant 
impunity to those accused of the AMIA bombing.
    And, finally, there is the case on his death. Those three 
cases are currently active in the Argentine judiciary and I 
believe the most important case of the three is the middle 
one--the case that he presented before the court a week before 
his death to say that the Argentine Government was colluding 
with the Iranian Government to grant impunity.
    That court--that case was all but thrown out of the 
courtroom in Argentina. Repeatedly it went through various 
appeal processes and we have an opportune moment in that some 
of the obstacles--the judicial obstacles that were presented in 
that court--in that case have been removed.
    So that case is now active. The DAIA--the Jewish 
community--the sister of the AMIA has become a part of that 
case and so they can now present additional evidence.
    I actually participated in examining a lot of the evidence 
that was involved in that case--the wiretaps that Nisman had 
presented as part of the evidence of making that accusation, 
and there is a lot more than what he was able to present.
    Obviously, he was never able to present that because he was 
killed. Having that case open suggests that he was killed in 
the line of duty--that he was actively pursuing a judicial 
matter and then was found dead in his apartment shortly after.
    The case on his death is also an opportune moment because 
now it has been graduated to a Federal court because of the 
preceding actions on the other case.
    This presents a tremendous opportunity in advancement on 
the Macri administration to be able to help and lend support as 
needed and as requested to be able to come to a conclusion in 
either one of those two cases.
    Having a conclusive judicial action in either one of those 
two cases can help us advance the AMIA, and at the end of the 
day that is what Alberto Nisman was trying to do.
    He was trying to seek closure for the victims of the AMIA 
attack and to--and to pursue those that he believed that were 
behind that attack.
    I think that's there is advancements on that. I think there 
are a lot of opportunities for the U.S. to help. But it is 
still--it is still in process.
    Mr. Duncan. Do you have any sort of time line idea of when 
they may come to some conclusion on that?
    Mr. Humire. I would like to say that it would happen this 
year. I couldn't say that with any certainty, Mr. Chairman. But 
what I will say is that there--if there is a time to advance 
the case it is now.
    Last year, obviously, Macri was his first year as 
President. There was a lot of struggles and challenges to get 
one of those cases open and to get the other case moved to the 
Federal court. That was a very difficult obstacle. They've 
overcome those obstacles so now is the--now is the time to lend 
whatever support, whatever assistance is needed so that they 
can adjudicate these properly. There is still a lot of 
adversarial forces in the country that don't want to see these 
cases ever see the light of day, which is why you are seeing 
those wiretaps come and be leaked.
    Mr. Duncan. But in your opinion, is the Macri government 
being very accommodating with the prosecutor?
    Mr. Humire. I believe that they are--the Macri 
administration is supportive to these cases. However, I believe 
there's more that could be done. I believe that if the U.S. 
Government----
    Mr. Duncan. President Macri, I would say, campaigned on 
it--that it was part of his promise to get----
    Mr. Humire. Correct.
    Mr. Duncan [continuing]. To the bottom of it, from what I 
understood.
    Mr. Humire. Correct. But I believe with the change of the 
administrations in the U.S.--I think in the past he might not 
have got a clear signal from the U.S. that they were very 
cooperative on this particular issue. It's not an issue that 
the U.S. would say that we were involved or had any stake in 
seeing the outcome or the resolution.
    That might change, and if that were to change I think you 
would see a much more rapid advancement and the Macri 
administration would be--I think would welcome that change.
    Mr. Duncan. Thank you. We went a little further into that 
than I anticipated. Let me just finish up with Mr. Cardenas.
    You know, your role with the Bush administration--you have 
had a lot of experience. What are some of the other diplomatic 
tools other than the sanctions that we just recently saw with 
the Trump administration? What are the other diplomatic tools 
you might recommend that the Trump administration use toward 
Venezuela?
    Mr. Cardenas. Mr. Chairman, I believe that we need to take 
a good look at the energy relationship, and that is, of course, 
Venezuelan oil shipments to the United States.
    I think that what I am talking about, of course, is really 
an expansion of targeted sanctions. Nobody is arguing for the 
type of wide application of economic sanctions that would only 
make the lives of individual Venezuelans even worse. But I 
think that within the realm of authorities that both Treasury 
and State Department have that we can do a lot more in terms of 
sending signals and creating disarray within the leadership of 
the Venezuelan Government, I can't imagine who wants to be the 
last Venezuelan sanctioned by the United States on behalf of a 
government that most Venezuelans have long ago lost any faith 
in.
    I think that the diplomatic route is key, as my colleague, 
Mr. Quilter, stated within the Organization of American States. 
I think that the changed environment in the region presents 
some opportunities that didn't exist before for other countries 
to get active on the Venezuela issue within the context of 
the--of the OAS.
    Of course, we have a very spirited Secretary General, Luis 
Almagro, who is looking for diplomatic support. We, of course, 
as the United States, don't want to be out there bearhugging 
him with love. But we can, through our offices, our good 
offices around the region and here in Washington, work with 
these other governments to support Mr. Almagro in what he wants 
to accomplish on Venezuela.
    So I guess the most fruitful avenues, I believe, that exist 
out there are continuing on the diplomatic regional approach--
multilateral approach and then let us start looking at very, 
very--specifically at pressure points in the Venezuelan 
Government's economic wherewithal to start upping the pressure. 
Pressure, combined with the multilateral diplomacy, I believe, 
is the way to go and, frankly, we just did not see that for 
many years, including both administrations.
    Mr. Duncan. I appreciate your frankness and I hope our 
subcommittee will bear with me because I am going to make 
Venezuela a focus of this subcommittee on what we can do for 
the people of Venezuela and end the oppression. And so we will 
have multiple hearings, I am sure, in this Congress on this.
    With that, I will yield to the gentleman, Ranking Member, 
Mr. Sires, for as much time as he wants.
    Mr. Sires. Thank you, Mr. Chairman.
    There is a newspaper report out today that the new budget 
looks to cut 37 percent of the State Department's budget. This 
is the--it just came out.
    I was just wondering what you think the impact is going to 
do with our relationship to the region if this were to come to 
fruition.
    Ms. Yearwood. Thank you, Mr. Sires.
    I think Mr. Humire said it very well, in terms of working 
with the State Department and U.S. agencies in countries goes a 
long way toward helping identify and deal with threats as they 
occur and I think the State Department is the front line in the 
region when it comes to dealing with problems, when it comes to 
nurturing the relationships.
    I think taking the State Department out of the equation 
creates a void. It means other countries would be able to step 
in and nurture relationships that the U.S. should be leading 
on, and so I would--I would strongly advocate against it.
    Mr. Sires. Mr. Humire.
    Mr. Humire. Yes, Mr. Sires. I believe, obviously, it will 
have a detrimental effect and any cuts--any budget cuts in a 
particular part of the world where the U.S. Government, 
particularly U.S. State Department, still struggles to have the 
level of engagement that they think they would wish to have, it 
will hurt.
    But I think--and I lived also through the cuts in the 
Defense Department during the sequester that, obviously, then-
General John Kelly, commander of SOUTHCOM, obviously complained 
a lot about because he didn't feel like he had the adequate 
resources to go after the threats.
    But I think both of these cuts--there is a reality--a 
fiscal reality that as legislators you know very well. However, 
it is also a consequence of priorities or lack of priorities 
and this is a point I just want to emphasize.
    A lot of challenges we are addressing throughout the world 
are converging in Latin America, be it the aggressions or 
resurgence of Russia, the expansions and aggression of China, 
or the belligerence of Iran.
    Those challenges are becoming closer to our shores in Latin 
America in places like Venezuela, and if our policy makers 
don't prioritize the region that's going to become a bigger 
problem.
    That is going to become a bigger threat. Dealing with that 
requires money. It requires appropriations. It requires us to 
give our authorities the capabilities that they need to address 
it.
    Mr. Sires. Mr. Cardenas.
    Mr. Cardenas. Thank you, Mr. Sires.
    As the chairman noted--Mr. Duncan noted, I did serve in the 
Bush 43 administration and both at the State Department and 
USAID.
    So I have been in the belly of the beast and I have--I 
recall it was very, very shocking or, certainly, sobering to 
compare the resources that we had at our disposal with those 
that our colleagues in DoD had at their disposal. So that was--
is an ongoing challenge.
    But it--at the same time, there is waste, fraud, and abuse 
in any Federal bureaucracy that can be--that can be addressed, 
that more efficiency and better prioritization of objectives 
can be achieved. I think it has to be an effort, I think, 
whereby one has to be cognizant of a new environment whereby we 
have to be leaner and meaner.
    Maybe it will not wind up where the President's opening bid 
established and the figure could result in a higher number. But 
I think that the bureaucracies involved need to be prepared 
for--to participate in leaner, meaner operations.
    Mr. Sires. Mr. Quilter.
    Mr. Quilter. The American people, apparently, believe that 
25 percent of our budget goes to foreign aid. The number is 
less than 1 percent, as you know.
    I think this would be penny-wise and pound foolish. Any 
cuts to the 150 account would be more expensive in the long 
run.
    General Mattis himself said that if you--if you don't fully 
fund the State Department I think he said, I have to buy more 
ammunition, and I think that is absolutely right. Buying 
ammunition is much more expensive than fully funding the State 
Department. Thank you.
    Mr. Sires. And my topic that I always raise, you know, 
partners in the region long maligned the United States for its 
treatment of Cuba and used it as an excuse to stay silent.
    Now that we have this opening and we have all this counter 
back and forth, what is the principal reason that these 
countries don't speak up about the human--the abuses in Cuba? I 
mean, it is well documented--human rights abuses, people 
getting beat up. Why is it that they don't speak up? I mean, 
they don't have to now worry about us. Mr. Cardenas.
    Mr. Cardenas. Mr. Sires, I have--as a long time student of 
U.S.-Cuba relations I do have some impressions, if I could 
share with you.
    I think that in most cases in many of these countries they 
are afraid, domestically, of their own left. The left in Latin 
America is not like the left in this country.
    The left movements, many of them having been widely 
infiltrated by Cuba, can be violent. They can be disruptive. 
And to push against Cuba, to speak out for the most humane 
topics that any American wouldn't think twice about, they 
remain reluctant for fear--for fear of the trouble that Cuba 
can cause in their own countries.
    Mr. Sires. Mr. Humire, would you agree with that?
    Mr. Humire. I do agree. Let me just add to that, it is also 
not a accident that you have seen this in particular countries 
because what the Cubans are very good at is working with host 
governments to be able to influence public opinion, and it is 
that center of gravity--public opinion--that we need to tackle 
to be able to get it more on the side of U.S. influence or U.S. 
activity.
    In my written testimony, I examine public opinion polls 
through Latino Barometer, a respected Chilean polling firm, and 
what you see is a negative trend in favorable U.S. public 
opinion in 10 countries throughout the hemisphere.
    Now, I am not going to say that Cubans are behind all of 
that, but they are definitely pushing that narrative. It is the 
ability to get a narrative, to grab a narrative, that helps 
solidify our ability to sell the U.S. as a legitimate partner 
in the region.
    We don't have the narrative. The U.S. does a lot of good 
actions. The Defense Department does a lot of good. Whenever 
there's a humanitarian crisis they are some of the first people 
to respond. But that action isn't all of a sudden--that action 
isn't accompanied by a story, and it is those stories that need 
to be told to be able to push back against what the Cubans have 
done throughout the region.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Duncan. I thank the ranking member.
    Now going back and forth, we are going to go to Mr. Rooney 
from Florida for 5 minutes.
    Mr. Rooney. This testimony has been a very thorough 
overview of what's going on in Latin America right now and I 
appreciate it.
    I have spent a fair amount of time down there myself over 
the years. So I am trying to find a couple of things that 
haven't been mentioned yet to be productive.
    So, Mr. Humire, if you could comment--the chairman 
commented on the role of Iran in the Nisman case in Argentina. 
If you could comment on the current activities of Iran in 
Venezuela and Nicaragua.
    Mr. Humire. Thank you, Mr. Rooney.
    Iran--let me just start by saying that Iran, along with 
their proxy, Hezbollah, is present in every country in Latin 
America. In some cases they are more subterranean.
    They are working out of an informal network. In other 
cases, such as Venezuela, they have a full seat at the table 
with the current government. The recent appointment of the 
current Venezuelan Vice President, Tareck El Aissami, to me was 
a clear indicator of the level of control and influence that 
Iran has in that country.
    I have studied the Iranian presence in Venezuela for 
several years and it has graduated. It started as cultural 
presence, moved over to become a diplomatic presence with more 
economic engagement. It has now fully graduated into a military 
presence. The Iranian Revolutionary Guards, along with their 
subordinate elements through the Ministry of Defense and armed 
forces logistics, has complete presence and activities within 
Venezuela including territories that are not within control of 
the Venezuelan Government.
    Tareck El Aissami was one of the individuals that 
controlled a lot of that network or at least was one of the--
the man on the ground partners for Tehran in that activity. My 
understanding is that as the executive Vice President he's been 
granted executive powers that are essentially Presidential 
powers that can be used by Iran to foment more instability and 
conflict.
    What I worry about with Venezuela--and think of this within 
the context of Syria--what are we dealing with Syria? We are 
dealing with a proxy conflict with many parties where the 
Iranians, the Russians, and other actors are essentially 
fomenting instability and violence so that they can engage the 
United States.
    If you take that lens, that optic, and you apply that to 
Venezuela, you have the same actors. Obviously, not to the 
level that you see them in Syria, but the potential for that is 
there, especially with an individual like Tareck El Aissami at 
the helm. His connections with Damascus, with Russia, with 
Tehran could potentially create a conflict where the military 
gets into a war with the militias and that only benefits the 
folks in the Middle East.
    Mr. Rooney. I am glad you brought up about that because you 
know we know how from they fly in and out of there what kind of 
aircraft they use.
    Similar to that, assuming that we don't get into a Cold 
War-Guatemala situation, Venezuela finally--we are in the final 
innings of an opportunity to put the 15 years of the Chavez-
Maduro behind us--could you comment on what the impact to the 
smaller Caribbean countries is going to be with the end of 
Petrocaribe?
    I don't know who would be the best for that. Maybe Ms. 
Yearwood would because she is the Central American expert.
    Ms. Yearwood. Well, I mean, Venezuela, because of 
everything that is going on in Venezuela, obviously, 
Petrocaribe--the influence of Petrocaribe is waning and what we 
are seeing is the push toward greater energy diversity and 
sustainability in the region.
    The U.S. is engaging in various programs throughout the 
Caribbean and Central America and basically the hope is that 
Petrocaribe will become a--not as influential at the--at the--
at the end of the day. I think, given everything that's going 
on in Venezuela, we can expect to see the Petrocaribe program 
come to an end at some point in the not too distant future.
    From a Caribbean perspective, for the countries that are a 
part of the Petrocaribe program, the important thing is that 
they are ready to deal with the move away from Petrocaribe, 
which I think opens a lot of opportunities for collaboration 
with the United States, and I referenced earlier the discovery 
of oil in Guyana, and the cooperation between Guyana and 
Trinidad and Tobago in terms of exploiting that opportunity. 
So----
    Mr. Rooney. Time for one more, Mr. Chairman?
    Mr. Duncan. We have got time for one more.
    Mr. Rooney. One brief, and I'd like to ask Mr. Quilter and 
perhaps Mr. Cardenas about the Pacific Alliance. That is one 
thing that hadn't been mentioned here. And, you know, we have 
got four very important countries working together and looking 
west while we don't know sometimes where we are looking, right, 
and you both touched on some of those.
    So maybe you could give us some comment on the negative 
aspects of that for the United States, and the positive aspects 
of that for Chile, Mexico, Colombia, and Peru vis-a-vis China 
and Asia.
    Mr. Quilter. The Pacific Alliance is an amazingly effective 
integration mechanism. Right now, trade is a bad word. We are 
sort of falling over ourselves trying to understand how it fits 
into our bigger picture. But that is precisely the kind of 
integration mechanism that we would need to work with. We need 
to work with it in some manner. The fact that the TPP is now 
off the table means that we need a new way to engage with that 
group because they are going to move without us. There is no 
doubt that they are going to move without us. And another thing 
we have to think about are opportunity costs of all these 
things.
    So are we creating a strategic opportunity for China as we 
step back from these relationships? The same question really 
applies to Russia, although not as urgently, I believe.
    Another opportunity cost, which was mentioned by the 
chairman which I would like to flag, is what we really should 
be talking about right now with Mexico is energy integration in 
this region.
    We can do it. That is the next item on the agenda. We are 
just not getting to that item because we are talking about a 
bunch of other things that I think we should have left behind.
    Mr. Cardenas. Ambassador Rooney, if I could just add to 
Peter's comments. The Pacific Alliance is something that was an 
achievement of U.S. foreign policy, an objective policy that 
has spanned Democratic and Republican administrations that is 
advocating on behalf of trade integration, open economies, free 
trade, and now that we have this entity that is borne of 
itself--it wasn't like the United States came and put them 
together. They, unilaterally, came together. But it was after 
many years of things that we had pushed for, bipartisan support 
in the region.
    So I think that we have to quickly figure out what our 
approach is going to be. President Trump has been very clear on 
his points about multilateral agreements. But he is for 
bilateral agreements. So we have to figure out how this all 
fits together.
    Mr. Duncan. I thank the gentleman. Just I hope--you know, 5 
weeks into this I hope energy is a part of the conversation as 
NAFTA is renegotiated.
    We do know with natural gas pipelines, with constitutional 
changes in Mexico with regard to nationalization--
denationalization of the energy sector, there's a lot of 
opportunity with Mexico that I think ought to be on the table, 
and I can promise you I will be conversing with the Trump 
administration on energy policy and with regard to Western 
Hemisphere countries because I think there is--I used to talk 
about American energy independence and I broadened that to 
North American energy independence.
    Now I broaden that to hemispheric energy independence where 
we can work with our allies here that are hungry for energy, 
hungry for American technology. There is just a heck of a lot 
of opportunity here--bilateral opportunity in so many ways.
    So with that, I will go to the gentlelady from Illinois, 
Ms. Kelly, and for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    At the community of Latin American and Caribbean states 
summoned on January 25th, President Castro expressed Cuba's 
willingness to continue negotiating a bilateral agreement with 
the U.S. President Trump has continually repeated his America 
first mantra about creating jobs and increasing exports. 
Lifting the embargo would open up a new market for American 
companies and the potential to add $366 million annually in 
U.S. exports.
    In Illinois alone, which I represent, the removal of U.S. 
travel and financial restrictions would increase Illinois 
agricultural exports to Cuba by $6.6 million annually.
    In my opinion, expanding trade opportunities for American 
farmers is putting America first. Given the economic benefits 
and regional support for lifting the outdated Cuban embargo, 
what are the next steps that Congress and the Trump 
administration should consider?
    And also, how should we balance trying to bring opportunity 
to the Cuban people without emboldening the Castro regime?
    And if we could start with Mr. Cardenas and Mr. Quilter.
    Mr. Cardenas. Thank you, Congresswoman.
    I would say that opportunities--unfortunately, what I have 
seen over the last 2 years is the Cuban Government taking 
advantage of the very generous outreach of the Obama 
administration to put the past history behind us, and to move 
forward in a cooperative manner for the benefit of the Cuban 
people, has resulted in the Castro regime manipulating and 
using those overtures to solidify its own control over the 
people.
    And specifically, I would say that the Cuban military 
takeover of the Cuban tourism industry--the hotels, the 
restaurants and other institutions--means that this has 
translated into a windfall--a financial windfall for the 
government at the expense of the people.
    I have seen very little true market openings whereby Cubans 
truly have the freedom to open businesses, to conduct them as 
they see fit without fear of the government deciding that they 
are making too much money.
    So I would find ways to review the relationship with more 
stipulations, more conditionality on benefits for the Cuban 
people, rather than simply this open-ended new path that was 
opened up by President Obama that doesn't account, or doesn't 
demand or expect any reciprocal action from the Cuban 
Government.
    Mr. Quilter. I would agree that a metric here is benefit to 
the Cuban people. I think that is absolutely correct. I don't 
think lifting the embargo is on the table. I don't think there 
are votes for it right now.
    I do not believe we need to go any farther than what 
President Obama has done for now. My take on the changes that 
President Obama made are a little bit different and I see them 
as things inherent to us as Americans and that is a part of it 
that sometimes gets lost in the discussion. It is not only a 
foreign policy move to give Americans back their rights to 
travel, to engage in commerce, to help their families in Cuba 
if they have them, et cetera. But all through this we must keep 
our compass true. This is about democracy. This is about human 
rights. It is about fugitives from justice, as Mr. Sires knows 
well--something very close to his heart. That should still be 
the north of our relationship with Cuba. That should not 
change.
    Mr. Duncan. Gentlelady's time has expired.
    I am going to go ahead to Ms. Torres and I am going to ask 
if you could just limit your to maybe one good question because 
they have called votes. And then I will move on to your 
colleague and just allow the new members to ask. Ms. Torres.
    Ms. Torres. Great. Thank you so much for the opportunity to 
participate. It has been quite interesting hearing all the 
different perspectives.
    I am new to the Western Hemisphere Subcommittee, new to 
Foreign Affairs Committee. But the work in, certainly, the 
Northern Triangle is not new to me.
    I am very, very involved in addressing the issues, 
specifically the issues of government corruption and ensuring 
that the U.S. is not just throwing good money after, you know, 
good money--it is all our taxpayers' dollars--but ensuring that 
once our work there is done we leave a government, you know, 
that--with a traditional process that actually works for the 
people.
    You know, my goal is that the next Norma Torres will have 
an opportunity to be a Member of Congress in Guatemala and not 
have to be sent to live with a, you know, a relative in the 
U.S. because it was too dangerous for her to grow up there.
    On the issue of Mexico, I am from California. Mexico is our 
number-one trading partner. Mr. Quilter, I really appreciate 
your comments. Diplomatic engagement, I absolutely agree, is 
the key to solving some of our problems. A lot of the problems 
have been created with this new administration, I believe, in 
my opinion.
    Some of the very loose comments that have been stated by 
this administration have certainly hurt us there. We don't have 
an Ambassador to help clean up some of the mess that we have 
created there and that poses a problem, not just to all of the 
states that trade, you know, with Mexico.
    On the issue of weapons, I am curious to know as to what 
more--what policies could be effective to help stem the tide of 
guns across the border into Mexico.
    I have to go back to some of the comments. I think it was 
your comment that stated that Mexico has fortified their 
borders and even within Central America. They used to have sort 
of a brotherhood. There were no borders. You know, people from 
the region can travel across. That is no longer, you know, what 
is happening there. People are stopped.
    Ninety-seven percent of the migrants that are--that cross 
to the Mexico border are sent right back to their home 
countries without refugee status. So what more can we do to 
ensure that we don't destabilize Mexico as we have done in some 
of the areas--other areas where we have no business conducting 
ourselves the way we have been in the past?
    Mr. Quilter. Very quickly--thank you very much for your 
letter of February 27th on Mexico. I think it is a wonderful 
letter. It was great to see it.
    On guns, lost a little bit in the--in the trip right now of 
Secretary Tillerson was that he brought up the issue of guns 
and bulk cash, which is, of course, what the Mexicans want out 
of the other side of the drug equation--just that specific 
item.
    This has been on the table for a long time. We have just 
never--we have just never really gone there. We need a 
strategy. We have the smarts to do it. We have State. We have 
ICE. We have ATF and we have ONDCP, which is really good on the 
numbers. We need to engage them all on that. To do it, we need 
better information. We need better reporting. We need better 
transparency about the guns.
    We need a very good record of what guns are eventually 
found down in Mexico, where do they end up, where are they 
recovered and what for. Those are the kinds of things we need.
    Ms. Torres. Is it true 70 percent of those weapons found in 
Mexico are--you know, have a U.S. point of origin?
    Mr. Quilter. Yes, and we need to make sure our numbers are 
really good because we have these discussions about whether it 
is really 70 percent or some number that is smaller.
    Honestly, it doesn't matter. These numbers are way too big. 
So we need--but we need good numbers.
    Ms. Torres. On the issue of Central America, 
congratulations, Mr. Chairman and Ranking Member. I think, you 
know, you have been around for a while and the work they have 
done with Plan Colombia has been wonderful.
    But what lessons learned from Plan Colombia can we apply to 
the Northern Triangle? I truly believe that we have sort of 
done such a great job in Colombia that a lot of the drug 
cartels have moved north to the region and are the cause--part 
of the cause of what has happened in the Northern Triangle 
specifically.
    Mr. Cardenas. I would just, very quickly, think that--say 
that the essential lesson is political leadership in the 
region.
    We have to find, frankly, three or four President Uribes 
among the Northern Triangle countries--somebody who is willing 
to go against vested interests.
    As you noted, Congresswoman, the narcos and the gangs have 
so permeated these societies that you don't know who is dirty 
and who is clean. But you can find out and there are ways to 
find out. We need to help them expose the insidious 
infiltration of the narco traffickers and they need to be 
rounded up and we need to, as I briefly stated in my testimony, 
the twin evils of corruption and impunity--we need to push and 
stand behind and help those administrations counter those evils 
within those societies in order to make real progress against 
the narco traffickers.
    Ms. Torres. I agree with that. I just--I disagree that 
security should be our only point of business there. I also 
believe that ensuring that we are supportive of CSIG or MOXI 
continues to be a priority for us and ensuring that educational 
opportunities for the future leaders of these countries, that 
there is an investment outside of military training or police 
training in the region.
    Mr. Humire. Mr. Chairman, if I can just really quickly 
address.
    Mr. Duncan. Quickly, please.
    Mr. Humire. Congresswoman, just to--just to encapsulate 
Central America so you understand, to deal with the insecurity 
situation there--and I do a lot with the Department of Defense 
on countering transnational organized crime--there has to be an 
economic solution as well. The idea of doing security measures 
without doing any type of economic empowerment or economic 
trade is not going to work.
    If you look at the crisis in El Salvador, if you overlay--
just a small anecdote--if you overlay where all the gangs have 
greater control or were given territories in El Salvador and 
you overlay that with where they have lack of property rights, 
it is the same territories.
    So essentially what I am saying is we have to understand 
what are the drivers of economic growth and if you look at the 
drivers of economic growth they are mostly economic freedom, 
and I think that's where we have to go.
    Mr. Duncan. I hate to do it. There is less than 5 minutes 
on the clock for votes that they have called.
    Members of the subcommittee can submit their questions for 
the record. We would ask that you respond to those so that 
members can have their question asked.
    I apologize, I don't have the vote schedule. But I want to 
appreciate the participation and, Mr. Espaillat, I will make it 
up to you in a future committee hearing.
    Before we adjourn, I want to give a special thanks to James 
Randaccio, our current Western Hemisphere Subcommittee intern. 
James has been a real asset to the subcommittee. We've been 
happy to have his significant contributions to our team.
    We have got a great staff on the minority and majority 
sides. Look forward to working with you. I thank the witnesses 
and with that we will stand adjourned.
    [Whereupon, at 3:54 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

                                 <all>
</pre></body></html>
